Supreme Court, U.S
FILED

SEP 3 0 2019
office of the clerk

In The

Supreme Court of The United States

Glen Plourde,
Petitioner
v.
Ashley Poulin,
Respondent

On Petition For Writ Of Certiorari
To The Maine Supreme Court

PETITION FOR A WRIT OF CERTIORARI

Glen Plourde
Pro Se
7 Hussey Road Apt #3
Albion, Maine, 04910
207-659-2595

received
OCT 3 - 2019

QUESTIONS PRESENTED
The case under review may superficially
appear to be a simple protection from harassment
case, although petitioner assures The Honorable
United States Supreme Court that the Facts and
Law pertinent to and directly associated with this
case are far from simple, and involve deep matters of
Constitutional Law as well as International Law that
petitioner’s own state’s highest court has refused to
address not only in its Judgement, but its post­
judgement rulings on a Motion for Reconsideration
and Motions for Finding of Facts and Conclusions of
Law, and that therefore respectfully requires This
Honorable Court’s attention.
On or about the night of June 24 2004,
Petitioner unwillingly crossed back and forth
between Canada and the United States via the Peace
Bridge in Buffalo, New York approximately six times
in approximately six hours, for reasons he
understands to be classified Top Secret. Upon his
last entry into the United States, petitioner was
asked to pull into the United States Customs and
Border Protection facility, which he did. Fearing for
his life, Petitioner at that time immediately
attempted to immigrate into Canada.
From the years 2004 - 2013, all of petitioner’s
Employment has been for United States Government
Contractors working on United States Department of
Defense Projects.
During Petitioner’s 2012 - 2013 Employment
at United Technologies’ Hamilton Sundstrand in
Windsor Locks, Connecticut, technically working for
CDI Aerospace, petitioner was verifiably Tortured as
defined by Black’s Legal Dictionary, The United

States Constitution, Federal Statute and The Geneva
Conventions against Torture.
During December of 2013, petitioner returned
to his parents’ home in Newburgh, Maine; having
survived Torture and multiple assassination
attempts while working at United Technologies’
Hamilton Sundstrand, although not without
suffering persisting Critical Injury(s) sustained by a
Weapon(s) he understands to be classified Secret (in
his particular experience, Top Secret).
Petitioner’s experience with his family is
notable and is included in U.S.S.C. Petition for
Certiorari 19-299 although has been omitted from
this introduction for brevity.
Petitioner knows himself to be positively
under round-the-clock surveillance by the FBI or
agents acting on their behalf ever since being
Tortured in 2012 — 2013; probably since the 2004
“Peace Bridge Incident”. Petitioner has confronted
the FBI with this knowledge in-person at their
Boston (Chelsea), Massachusetts Regional Field
Office on October 11 2017 and July 09 2019 and The
Special Agents petitioner spoke with never denied
that Fact; in-fact they tacitly confirmed it.
Petitioner is rightfully fearful for his life due
to the fact that he has been Tortured and Critically
Injured during his last employment as well as
targeted for assassination multiple times, and has
alerted his State Senators, Congressmen, Governor,
Attorney General, the Maine Human Rights
Commission, the ACLU, the FBI, the CIA, the NSA,
The Office of the Director of National Intelligence,
among others, of these Facts and all agencies have
refused to help him.

ii

Senator Susan Collins’ 2016 response to
petitioner was particularly troublesome. Petitioner
cannot include it in this Petition at this time as he
cannot locate either the physical or digital copies of it
(despite the fact they have been well-cared for) and
therefore suspects it has been stolen.
Petitioner moved into his current apartment,
11 (7) Hussey Road, Apartment 3, Albion Maine
04910 on April 29 2018.
On August 18 2018 petitioner was threatened
with a deadly weapon, a handgun, while lawfully and
peaceably on the Public Sidewalk in front of the
Albion Town Office by a male occupant of 28 Main
Street Albion. Petitioner promptly reported this
incident to The Kennebec County Sheriff s Office and
other Maine State Government Agencies, including
The Office of The Maine State Governor and The
Office of the Maine State Attorney General.
On August 20 and 21, 2018 petitioner was
once again harassed by the same male occupant of 28
Main Street while lawfully and peaceably on the
Public Sidewalk in front of The Albion Town Office.
Petitioner promptly reported this incident to the Law
Enforcement Agencies identified above.
On August 25 2018 petitioner was followed by
the same male occupant of 28 Main Street; from
downtown Albion for approximately 10 miles down a
series of quiet country roads until petitioner pulled
into a populated house and the male occupant
described above “gunned his engine” as he drove by.
Petitioner promptly reported this incident to the Law
Enforcement Agencies identified above.
On August 28 2018 petitioner was followed
home from the Public Sidewalk in front of the Albion
Town Office by a man in a large white truck that
iii

tailgated him the entire way. Petitioner exited his
vehicle and returned to his apartment, although the
unknown man followed him inside the foyer area
yelling rude and abusive comments the entire time.
Said male then entered Apartment #1 (downstairs)
and held conversation with the occupants there for
approximately fifteen minutes before leaving. Said
man was later identified as “Joseph Strohman Sr.”.
On August 29 2018 Petitioner was issued a
“Cease Harassment Order” by the Maine State Police
for the person of the respondent, a person he had
never seen, heard of, or known about at all in his life.
Petitioner was rightfully afraid and confused as he
had been threatened with a handgun and further
harassed from the residence of 28 Main Street,
nothing had been done, and now eleven days later he
was being issued a “Cease Harassment Order” for a
person he had no knowledge of whatsoever who
apparently resided at that same address.
On August 30 2018 Petitioner was arrested
while smoking on the Public Sidewalk approximately
300 feet and four properties away from 28 Main
Street and charged with both Stalking the
respondent (Docketed as KENDC-CR-18-20983) and
Trespassing at 22 Main Street (Docketed as KENDCCR-18-21183). Petitioner was confronted by
approximately eight Maine State Troopers and five
different Maine State Police Vehicles. As petitioner
was thrown over the back of an MSP vehicle and
handcuffed by no less than five Maine State
Troopers, loud cheering and applause could be heard
coming from the other side of the street.
Respondent sought a Protection from
Harassment order against petitioner. Petitioner filed
a legally substantial Motion to Dissolve which took
iv

arresting officer Maine State Police Trooper Tyler
Harrington an entire 9 days’ to deliver to the
Respondent, her not receiving it until the night
before the hearing, and this “untimely service” was
used as an excuse by the Maine State Judiciary to
ignore his motion and move directly to the Final
Hearing.
At the October 31 2018 Final Hearing,
petitioner was saddled with both a 1-hour time limit
for presenting his case, which he was made aware of
only 2 days’ before, on October 29 2018. Also during
the final hearing, petitioner was again saddled with
a “witness scheduling order” that precluded
petitioner from calling any of the Government
Witnesses (Maine State Police Troopers) petitioner
had subpoenaed, nor viewing any of the substantial 7
evidentiary items petitioner had subpoenaed.
Presiding Judge (.French, Rae Anne) ruled in
favor of the respondent and issued a one-year
protection from harassment order.
Petitioner appealed to the Maine State
Supreme Court with a series of very well-wrought
and legally substantial arguments although that
court upheld the lower court’s decision.
Thus petitioner now appeals to The United
States Supreme Court to address the grievous
Constitutional Violations and Judicial Injustices he
has suffered by The United States Government, the
Maine State Government, and the Maine State Court
System, all of which the Maine Supreme Court
ignored in both their Decision and response to
petitioner’s subsequent Motion for Reconsideration;
and failure to disposition, much less even respond to,
Petitioner’s Motions for Finding of Facts and
Conclusions of Law.

Thus Petitioner requests Certiorari be granted
to address the following substantial questions of
International and Constitutional Law:
1. Whether the District Court, The Maine
Supreme Court, The Maine State Government,
or The Federal Government are in violation of
The United States Constitution, The Maine
State Constitution, The Geneva Convention
against Torture and Other Cruel, Inhuman, or
Degrading Treatment or Punishment, and
Maine State and Federal Law as a result of
having confirmed knowledge that the
Petitioner was Tortured by The Federal
Government and subsequently failing to act on
it as Constitutional and International Law
demand they must.
2. Whether the Maine State Government has
colluded with the Federal Government in
order to “cover up” the FBI’s Torture and
Harassment of the Petitioner that continues to
this day while he resides in Maine and have
therefore violated numerous articles of The
United States Constitution, Maine State
Constitution, The Geneva Convention against
Torture and Other Cruel, Inhuman, or
Degrading Treatment or Punishment; as well
as Federal and State Law in doing so.
3. Whether the Maine State or Federal
Government has violated the Petitioner or his
Family’s United States Constitutional Rights,
Maine State Constitutional Rights,
International Humanitarian Rights; as well as
vi

Federal and State Law in Exploiting them,
Disenfranchising them, and otherwise
manipulating them for, among other reasons,
their own benefit, gain, or amusement.
4. Whether The Federal Government, the Maine
State Government, the Maine State Court
System (District and Supreme Courts), and
Maine State Law Enforcement Agencies have
colluded in bringing a fraudulent case(s)
against the Petitioner and again colluding in
arriving at the predetermined outcome they
wished to have in this case.
5. Whether The Federal Government, the Maine
State Government, the Maine State Judicial
System (District and Supreme Courts) and
Maine State Law Enforcement Agencies have
colluded in orchestrating the October 31 2018
hearing such that Petitioner was critically
disenfranchised and unable to examine most
subpoenaed witnesses and all subpoenaed
evidentiary items as a result of the 1-hour
scheduling order allotted for his defense only 2
days before trial and the subsequent witness
scheduling order imposed upon him during the
trial itself.
6. Whether the Maine Supreme Court has set
unreasonable precedent in this case that
conflicts with precedent already having been
set by the Maine Supreme Court in cases Bank
of Am. N.A. v. Camire and Dolliver v. Dolliver,
as well as abusing rules M.R. Civ. P. 16, M.R.
Civ. P. 42A(a), and M.R. Evid. 611(a) in the
vii

process of setting that unreasonable
precedent.
7. Whether the Maine Supreme Court has acted
with Impropriety in its refusal to even respond
to the Petitioner’s Motion for Finding of Facts
and Conclusions of Law, all Facts and
Conclusions therein having significant bearing
on this case.

viii

PARTIES TO THE PROCEEDING
The Petitioner respectfully requests the
judgement of the following parties be reviewed.
Melissa Martin, Attorney of Record for Respondent
88 Federal Street
Portland, Maine 04101
The Maine State Supreme Court
c/o Chief Justice Saufley
205 Newbury Street
Portland, Maine 04101
The State of Maine
Maine State Attorney General’s Office
c/o Maine Attorney General Aaron M. Frey
6 State House Station
Augusta, Maine 04333
The Federal Bureau of Investigation
Office of The General Counsel
J. Edgar Hoover Building
935 Pennsylvania Avenue NW
Washington, D.C. 20535
The Central Intelligence Agency
c/o Office of Inspector General
Office of Public Affairs
Washington, D.C. 20505
The Department of Justice
c/o Inspector General Michael E. Horowitz
950 Pennsylvania Avenue NW
Washington, D.C. 20530
ix

Office of The Director of National Intelligence
c/o Director of Intelligence Joseph Maguire
Washington, D.C. 20511
The United States Attorney General
c/o U.S. Attorney General William Barr
950 Pennsylvania Avenue NW
Washington, D.C. 20530

x

RELATED PROCEEDINGS
Maine Supreme Court
KEN-18-479
Doe. v. Plourde
July 11, 2019
Waterville Maine District Court
WATDC-PA-18-00329
Ashley Poulin v. Glen Plourde
October 31, 2018
Capital Judicial Center, Augusta Maine
KENDC-CR-18-20983
State of Maine v. Glen Plourde
May 23, 2019
Capital Judicial Center, Augusta Maine
KENDC-CR-18-21183
State of Maine v. Glen Plourde
May 23, 2019
Newport District Court, Newport Maine
PENDC-CR-16-20309
State of Maine v. Glen Plourde
April 26, 2017

xi

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

IX

RELATED PROCEEDINGS

,xi

TABLE OF CONTENTS...,
TABLE OF AUTHORITIES

,X11

xvi

CITATION TO OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

I.

History of the Petitioner’s Relationship
with the Government; Torture, Abuse,
Persistent Interference and Control..... 3

II.

Petitioner’s Political Activism in Albion
Maine
16

III.

Petitioner’s history with 28 Maine
Street and subsequent arrest and
protection for abuse order from
unknown person.............................

xii

19

REASONS FOR GRANTING THE WRIT

25

I.

The Maine Supreme Court has set
highly-unreasonable precedent that will
be used to disenfranchise unwitting
litigants
25

II.

There are Numerous, Readily Verifiable
International Law Violations and
Constitutional Rights Abuses
27

III.

The Situation is Untenable and
Uncontainable and Patently Wrong....31

CONCLUSION

37

AP. DECISION, 2019 ME 109

38

AP. ORDER ON MOTION TO STAY.

44

AP. ORDER ON MOTION TO RECONSIDER....... 45
AP. GENEVA CONVENT. AGAINST TORTURE...46
AP. 18 U.S.C. § 2340

55

AP. U.S. CONSTITUTIONAL PROVISIONS

56

AP. MAINE STATE CONST. PROVISIONS

60

AP. MAINE CODE OF JUDICIAL CONDUCT...... 63
AP. M.R. Civ. P. Rule 42

73

AP. M.R. Civ. P. Rule 16A(a)

74

xiii

AP. M.R. Evid. 611(a)

75

AP. Bank of Am., N.A. v. Camire, 2017, TflO

76

AP. Dolliver v. Dolliver, 2001, flO

77

AP. Sparks v. Sparks, 2018, 19

78

AP. 5 M.R.S. 4654(6)

79

AP. 5 M.R.S. 4654(1)

80

AP. KEN-18-479 DOCKET RECORD

81

AP. KEN-18-479 APPELLANTS BRIEF

87

AP. 11/01/16 DOC. WITH CONFID. DISCL

133

AP. 08/02/17 DOC. WITH CONFID. DISCL

146

AP. KEN-18-479 APPELLANT REPLY BRIEF.... 194
AP. KEN-18-479 MOTION FOR RECONSID....... 218
AP. KEN-18-479 MTN FOR FACTS, LAW

264

AP. KEN-18-479 MTN FOR FACTS, LAW 2

272

AP. LOWER COURT 1-HR SCHED ORDER

282

AP. LOWER COURT WITNESS SCHED ORD.....284
AP. LOWER COURT ORD EXCLUDING MSP.... 286

xiv

AP. LOWER COURT JUDGE LYING, TRANS.....288
AP. 08/15/18 KCSO POLICE REPORT

289

AP. 08/20/18 KCSO POLICE REPORT

321

AP. 08/22/18 KCSO POLICE REPORT

326

AP. 08/30/18 KCSO POLICE REPORT

333

AP. LOWER COURT JUDGE BIAS, TRANS....... 354
AP. MSP CONT. RPT. CONTRADICTS MSSC

355

AP. AFFIDAVIT RE: LAWYER PROBLEMS....... 357
AP. AFFIDAVIT RE: LAWYER PROBLEMS 2.... 370
AP. MTN FOR ATTY FROM DOJ

384

AP. WATDC-PA-18-00329 ORDER

394

AP. KENDC-CR-18-20983 DISMISSAL,

398

AP. KENDC-CR-18-21183 DISMISSAL

400

AP. NEWDC-CR-16-20309 DISMISSAL

402

AP. PETITIONERS RESUME

404

XV

TABLE OF AUTHORITIES
INTERNATIONAL LAW
Geneva Convention against Torture and Other
Cruel, Inhuman, or Degrading Treatment or
Punishment
9, 10, 11, 27, 30
U.S. CONSTITUTIONAL PROVISIONS
U.S.
U.S.
U.S.
U.S.
U.S.

Const.
Const.
Const.
Const.
Const.

Amend.
Amend.
Amend.
Amend.
Amend.

U.S.
U.S.
U.S.
U.S.

Const.
Const.
Const.
Const.

Amend.
Amend.
Amend.
Amend.

I...
10, 12, 13, 14, 22, 23
IV.
...8, 10, 12, 13, 14, 15
V....7, 8, 10, 12, 13, 14, 15, 22, 23
VI
............ 13, 14, 22, 23
VIII
............. 7, 8, 10, 12, 13
................14, 15, 22, 23
IX
7, 8, 13, 14, 15, 22, 23
X..
........................ 7, 22, 23
XIII...7, 10, 12, 13, 14, 15, 22, 23
XIV 7, 8, 10, 12, 13, 14, 15, 22 23

STATE CONSTITUTIONAL PROVISIONS
Maine
Maine
Maine
Maine
Maine
Maine
Maine
Maine
Maine
Maine
Maine

Const. Art.
Const. Art.
Const. Art.
Const. Art.
Const. Art.
Const. Art.
Const. Art.
Const. Art.
Const. Art.
Const. Art.
Const. Art.

1
1
1
1
1
1
1
1
1
1
5

Sect. 1....10, 12, 13, 14, 15, 22, 23
Sect. 3
12, 13
Sect. 4... 10, 12, 13, 14, 15, 22, 23
Sect. 5....10, 12, 13, 14, 15, 22, 23
Sect. 6
10, 13, 14, 22, 23
Sect. 6-A 10,12, 13, 14, 15, 22 23
Sect. 9....10, 12, 13, 14, 15, 22, 23
Sect. 13 10, 12, 13, 14, 15, 22, 23
Sect. 15
............22, 23
Sect. 19
10, 13, 14, 15
Sect. 12
.passim

xvi

CODES, STATUTES, RULES
18 U.S.C. 2340........................................
Maine Rule of Evidence 611(a)............
Maine Rule of Civil Procedure 16A(a)
Maine Rule of Civil Procedure 42.......
Maine Rule of Judicial Conduct 1.1....
Maine Rule of Judicial Conduct 1.2....
Maine Rule of Judicial Conduct 1.3....
Maine Rule of Judicial Conduct 2.2....
Maine Rule of Judicial Conduct 2.3....
Maine Rule of Judicial Conduct 2.4....
Maine Rule of Judicial Conduct 2.5...
Maine Rule of Judicial Conduct 2.6...
Maine Rule of Judicial Conduct 2.7...
Maine Rule of Judicial Conduct 2.8....
Maine Rule of Judicial Conduct 2.9....
Maine Rule of Judicial Conduct 2.10..
Maine Rule of Judicial Conduct 2.11..
Maine Rule of Judicial Conduct 2.12.,
Maine Rule of Judicial Conduct 2.15.,

.passim

.. 23, 24
..23, 24
...23, 24
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23
..22, 23

CASES
Dolliver v. Dolliver, 2001 ME 144, 10, 782 A.2d
23, 24
316
Bank of Am., N.A. v. Camire, 2017 ME 20, 10, 155
23, 24
A.3d 416
Sparks v. Sparks, 2013 ME 41, 19, 65 A.3d
24
1223

xvii

CITATION TO OPINIONS BELOW
The opinion of the Maine Supreme Court is
published as Doe v. Plourde, 2019 ME 109 (page 38).
The opinions of the Waterville and Newport District
Courts are unpublished, but included in the
Appendix (pages 394-403).
STATEMENT OF JURISDICTION
The Maine Supreme Court entered judgment
on July 11, 2019 (page 38). Petitioner request a
writ of certiorari pursuant to 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND INTERNATIONAL
PROVISIONS INVOLVED i
The Geneva Convention against Torture and
Other Cruel, Inhuman or Degrading Treatment or
Punishment; Articles One through Sixteen.
18 U.S.C. 2340 — Definitions; Torture.
The First, Fourth, Fifth, Sixth, Eighth, Ninth,
Tenth, Thirteenth and Fourteenth Amendment to
The United States Constitution.
Article 1, Sections 1, 4, 5, 6, 6-A, 9, 13, 15, 19,
and Article 5 Section 12 of The Maine State
Constitution.

1 These Provisions are lengthy and have therefore been
included in The Appendix pursuant to Rule 14.1(f). Pages 4666.

1

STATEMENT OF THE CASE
This case is impossible to understand without
its proper context which is unavoidably lengthy.
Petitioner has done his best to provide brevity to over
15 years of history.
Petitioner has a long history with the United
States Government beginning in approximately 2004
(perhaps earlier) that continues to this day, and that
history has shown the United States Government to
be extremely hostile towards petitioner.
Petitioner believes this verifiably hostile
history has directly influenced both the Federal and
Maine State Governments’ refusal to investigate and
provide relief for the verifiable Torture and Critical
Injury(s) he has experienced at the hands of The
Federal Government (a Violation of International
Law), as well as to have influenced their decision to
prosecute a fraudulent case(s) against him (the case
on petition) in order to effectively silence his
Freedom of Speech. In doing so they have set
binding precedent in Maine Law that is by anyone’s
estimation, unreasonable.
During approximately 2003 - 2004, petitioner
was a staunch conservative and politically active,
often posting pro-conservative views and political
opinions on liberal blogs such as “Talkleft”, “Daily
Kos”, and “Pharyngula”, among others. As
petitioner’s conservative political views did not align
with the liberal views espoused by those blogs or
their regular commentators, such public postings and
conversations often became argumentative, although
petitioner believes that such arguments were mature
in nature and petitioner harbored no ill-will against
any of his numerous, regular detractors.
2

On or about the night of July 24 2004, just two
days prior to the Democratic National Convention,
petitioner unwillingly crossed back and forth
between Canada and the United States via the Peace
Bridge in Buffalo, New York approximately six times
in six hours, for reasons he understands to be
classified Top Secret.2 Upon his last entry into the
United States, petitioner was told by US Customs
and Border Protection to pull over into their facility
for inspection, which he did.
Fearing for his life, petitioner immediately
requested Political Asylum into Canada. At that
point all US Customs and Border Patrol Personnel
left the room and left petitioner unattended. An
extended period of time elapsed (Petitioner recalls
this time to exceed an hour) and petitioner panicked
and left US Customs and Border Patrol in the same
vehicle he arrived in. Petitioner was not confronted
by any member of US Customs and Border Patrol as
he exited their facility or at any time afterwards.
Shortly thereafter, petitioner was driven off
the road of a residential street in Buffalo, New York
while traveling at a high rate of speed (65+ mph).
Petitioner’s 2002 Saab 93’s airbag failed to deploy
although petitioner suffered no injury as a result of
the wreck. Immediately upon exiting the wreck,
petitioner was confronted by a large, aggressive male
who made hostile advances towards petitioner.
Said person ceased hostilities and hastily left
the scene when one of the residents of the street
petitioner’s vehicle had crashed on immediately
walked onto her porch and yelled to petitioner,
2 Petitioner asserts that his Torture by the United States
Government began in approximately July 2004.
3

asking if he would like her to call ‘911’, to which
petitioner responded in the affirmative.
Petitioner was not intoxicated, was lucid and
alert, and given no sobriety test; although he was
nonetheless placed in handcuffs by responding Law
Enforcement who drove petitioner in a law
enforcement vehicle to an unknown “Medical
Facility” in or around Buffalo, New York. After
observing petitioner for approximately an hour
petitioner was placed on a gurney in physical
restraints and was taken by ambulance to an
unknown facility.
Upon arrival at that facility petitioner was
given an injection of a red liquid he could not
identify. Petitioner asked the “nurse” administering
the injection what it was and she responded, “You
know what this is”. Petitioner was rendered
immediately unconscious due to unknown injection.
Petitioner awoke over three days’ later in the
Psychiatric Observation Unit of a Hospital in
Buffalo, New York. During that time petitioner met
with multiple panels of “Doctors”, some in excess of
twenty people (the room was crowded and standingroom only at times), during which petitioner
answered numerous questions, although no question
was asked whatsoever of his attempt to seek Asylum
into Canada. Petitioner was eventually released
approximately five days later into the custody of his
parents. Np Psychiatric Diagnosis was provided,
although petitioner was given a prescription for the
Neuroleptic Risperdal (Risperidone).
Over approximately the next two years
petitioner was placed on a “neuroleptic medication
merry-go-round” by his assigned psychiatrists,
consisting of approximately every single 2nd
4

generation neuroleptic available at that time, as they
insisted on attempting to treat symptoms petitioner
insisted simply did not exist. Petitioner found none
of these neuroleptics to be efficacious in any way
whatsoever and found them to only induce
unnecessary and highly-detrimental side effects.
After approximately two years petitioner
discontinued use of any and all neuroleptics on his
own and at his own discretion and found that his
mood, affect, mental acuity, thought processes,
memory, and overall physical health and feelings of
well-being increased dramatically as a result.
Petitioner felt normal again, a feeling he had not felt
in over two years, and had/has no symptoms of any
psychological disorder requiring neuroleptic
treatment.
Petitioner sought a new Psychiatrist and
found one, who agreed with petitioner’s statements
in above paragraph although did diagnose petitioner
with Post Traumatic Stress Disorder. Petitioner was
therefore asked to try the anti-anxiety medication
Clonazepam and mood-stabilizing drug Lamictal
(Lamotrigine). After approximately two years
petitioner discontinued use of Lamotrigine on his
own and with his psychiatrist’s approval as it had no
efficacious effects whatsoever, only detrimental side
effects; but continues to use the anti-anxiety
medication Clonazepam to this day as it is extremely
efficacious in treating the acute anxiety and panic
attacks petitioner now suffers from.
Petitioner’s interaction with above psychiatrist
eventually dwindled into “medication management”
in which petitioner and psychiatrist met every six
months for one hour to discuss petitioner’s life and
refill petitioner’s Clonazepam prescription.
5

In late 2007, as petitioner was transitioning
off neuroleptics as described above, petitioner was
given a choice by his employer, United Technologies’
Pratt & Whitney of East Hartford, Connecticut, to
either quit his job as a Software Engineering
Manager working on the Joint Strike Fighter Jet
Engine Program (F135) or be forced out of the
workforce procedurally. Petitioner therefore quit
and was immediately hired by another Department
of Defense Contractor, ITT Technologies of West
Springfield, Massachusetts (no longer under that
name).
From the years 2004 - 2013, all of Petitioner’s
Employment has been for United States Government
Contractors working on United States Department of
Defense projects.
Throughout those years, petitioner’s
employment history was meager at best, despite the
fact that petitioner holds a Masters’ Degree in
Electrical Engineering from the prestigious
Rensselaer Polytechnic Institute of Troy, New York,
all the corporations petitioner has ever worked for
are United States Department of Defense related,
and all projects petitioner worked on were programs
funded by the United States Department of Defense,
as evidenced by petitioner’s Resume (Page 403).
Petitioner’s gross income during those years
put him below the State of Connecticut’s Poverty
Line and forced him to live from unemployment
check to unemployment check from approximately
2007-2012.
Also apparent is that petitioner’s job search
was being orchestrated by The Federal Government
as he filed, literally, thousands of Job Applications
over those years using various websites, mainly
6

CareerBuilder.com, and yet the only responses he
ever received or job-placement companies that were
willing to work with him were “RJS Associates” of
Hartford Connecticut and “Aerotek Engineering” of
Meriden Connecticut.
As evidenced in petitioner’s resume, one
particular job, at MTU AENA, lasted for exactly 2
days’ due to terminal interference from United
Technologies’ Pratt & Whitney, a “partnered
company”, and although all of petitioner’s
unemployment benefits were verifiably exhausted at
that point (even the numerous extensions allowed for
under the 2008 Obama Administration) the State of
Connecticut continued to send him unemployment
checks despite that fact, no questions asked, in
obvious violation of State and Federal Law.3
Throughout those meager years of 2007 2012, petitioner’s parents made inferences that there
was heavy United States Government involvement in
his life. One such inference was when his Mother
gave petitioner’s college laptop computer, the only
computer he had had during college (thus forever
depriving petitioner of all his college contacts,
schoolwork, and email), to a “poor friend of hers who
needed a computer” without his permission in
approximately 2005. This “poor friend” was later
3 Petitioner’s Argument #1, 2, 3. Petitioner has been Critically
Disenfranchised during the Financially-Formative and
Relationship-Oriented years of his life by The Federal
Government, violating the Fifth, Eighth, Ninth, Tenth,
Thirteenth, Fourteenth Amendments of The United States
Constitution; identified to Maine Supreme Court in Appellant’s
Brief KEN-18-479, Argument Nine; Motion to Reconsider,
Argument One; Motions for Findings of Facts and Conclusions
of Law; all ignored by the Maine Supreme Court. Cited
documents included in Appendix.
7

identified by petitioner’s mother as “Cate Hayden”, a
CIA employee she was acquainted with from
approximately 2004 - present.4
Another such example occurred after
petitioner met with men he believes to be V. Paul
Reynolds and son Scott Reynolds, acquaintances of
his father and FBI employees, at a company called
“Titeflex” in Chicopee, Massachusetts in
approximately 2009 under the presumption of a job
interview.
Interview with Scott Reynolds was mundane
although Scott Reynolds was pejorative towards
petitioner and supplied numerous questionable
anecdotes to the conversation, such as plane crashes
with no survivors and other catastrophic disasters
involving loss of human life.
Interview with V. Paul Reynolds was
decisively far from ordinary as at one point, for no
discernable reason, V. Paul Reynolds told petitioner
“If you make trouble for us, I will destroy your
family”. Petitioner was rightly afraid and upset with
this comment as it had no bearing whatsoever on
what was being discussed, was offered by V. Paid
Reynolds for no apparent reason, and petitioner had
no idea what was meant by “if you make trouble for
us...” as petitioner was there interviewing for a job,
or so he thought.
4 Petitioner’s Argument #1, 2, 3. Petitioner’s private property
has been improperly seized by The Federal Government,
violating the Fourth, Fifth, Eighth, Ninth, Fourteenth
Amendments of The United States Constitution; identified to
Maine Supreme Court in Appellant’s Brief KEN-18-479,
Argument Nine; Motion to Reconsider, Argument One; Motions
for Findings of Facts and Conclusions of Law; all ignored by the
Maine Supreme Court. Cited documents included in Appendix.
8

Upon relating the details of this “job
interview” to petitioner’s father, petitioner’s father
grew visibly upset and said angrily “Who do they
think they are, the Titeflex Mafia? I’m going to make
some phone calls and straighten this out”. Petitioner
understands his father made those phone calls
regarding this “job interview” although never
disclosed to petitioner the recipients of those calls or
any resolution(s) arising from those calls.
Petitioner had not at that time seen pictures of
V. Paul Reynolds or Scott Reynolds although after
being shown photographs of them (they are often
featured in V. Paul Reynold’s commercial magazine
“The Northwoods Journal”) petitioner was positive it
was Scott Reynolds and V. Paul Reynolds he had met
with. Petitioner’s father asked some clever questions
about the interviewers, such as their sound/tones of
voice, relative disposition and demeanor, and other
biometric information not discernable in
photographs. When petitioner told father that “the
younger-looking, relatively soft-spoken, tall sandyblonde gentleman with fair countenance” was
chewing tobacco during the job interview, petitioner’s
father became convinced it was them as apparently
Scott Reynolds is or was a chewing tobacco user.
Petitioner could cite numerous other examples
that support the fact that his parents knew there
was direct Federal Government Involvement in his
life, although petitioner will leave it at the two cited
above as he could fill an entire book with such
anecdotes.
During petitioner’s 2012 - 2013 Employment
at United Technologies’ Hamilton Sundstrand in
Windsor Locks, Connecticut, technically working for
CDI Aerospace, petitioner was positively and
9

verifiably Tortured as defined by Black’s Legal
Dictionary, The United States Constitution, Federal
Statute, and The Geneva Conventions against
Torture. Petitioner also suffered Critical and
Lasting, persisting to this day, Injury(s) from a
Weapon(s) he understands to be classified Top
Secret, and has suffered Cruel, Inhuman, and
Degrading Treatment while employed there, also in
violation of The United States Constitution and The
Geneva Conventions against Torture.5
Petitioner is justifiably afraid to disclose the
exact nature of the Torture or Critical Injury(s) he
has sustained as a result, as the means, methods,
and technology involved are all classified Secret,
mostly Top Secret, and petitioner fears to disclose
such information in a “Public Document”. Petitioner
assures The Honorable United States Supreme Court
that the FBI and CIA will vouch for the Fact that
petitioner has positively been tortured, should they
rightfully supply The Honorable Court with this
information, and petitioner assures The Honorable
Court that he will disclose such means, methods, and
5 Petitioner’s Arguments 1, 2, 3. Petitioner has been Tortured
by The Federal Government and reported that Torture to the
Maine State and Federal Government and The Maine Supreme
Court who did nothing in response, violating The Geneva
Convention against Torture Articles 1, 2, 4, 5, 6, 7, 10, 11, 12,
13, 14, 16; the First, Fourth, Fifth, Eighth, Thirteenth,
Fourteenth Amendments of The United States Constitution;
Article 1 Section 1, 6-A, 9, 19 of The Maine State Constitution;
identified to Maine State Government on November 01 2016
and August 02 2017; Maine Supreme Court in Appellant’s Brief
KEN-18-479, Argument Nine; Motion to Reconsider, Argument
One; Motions for Findings of Facts and Conclusions of Law; all
ignored by the Maine Supreme Court. Cited documents
included in Appendix.
10

technology to The Honorable Court should they
request it in the event Certiorari is granted.
Additionally, petitioner assures The Honorable Court
that The United Nations would undoubtably find
that petitioner has been tortured should he disclose
to them this information.
Furthermore, petitioner is justifiably afraid to
disclose the nature of the Critical Injury(s) he has
suffered to a United States Medical Facility, as he is
aware such injury has been inflicted by The Federal
Government and is aware he is under round-theclock surveillance by the FBI, and therefore
rightfully does not trust a United States Medical
Facility to give him an impartial diagnosis(es),
prognosis(es), or accurate description(s) of the extent
of the injury(s) and damage he has suffered.
During December of 2013, petitioner was “let
go” from United Technologies’ Hamilton Sundstrand
and returned to his parents’ home in Newburgh,
Maine; having survived Torture, Critical Injury(s),
Death Threats, and multiple Assassination
Attempts.
Upon returning home, petitioner’s parents let
him know that they knew much of what he had been
subjected to, well above and beyond what petitioner
had disclosed to them, and sympathized with
petitioner, but only to a limited extent. Petitioner
understands his sister and niece to have been the
victims of a Viral Attack perpetrated by CIA
employees in approximately 2012 and understands a
settlement has been reached in that affair.
Petitioner therefore has a reasonable assumption
that his parents “limited sympathy” for his plight

11

stems from a Rightfully Justifiable Fear for their
Family as a whole.6
Petitioner’s mother has acquaintances from
approximately 2005 - present whom she identifies as
working for the CIA named Cate and Eric Hayden.
Petitioners mother is and has always otherwise been
self-sufficient and has kept no other close company.
Petitioner’s father has acquaintances that
petitioner knows with certainty are CIA employees,
including Pastor Mark Fowler and Family of The
Church of The Open Door in Hampden, Maine and
Pastor Ray Dupere and Family of Rockville Baptist
Church in Rockville, Connecticut.
Petitioner’s father also has acquaintances at
The Church of The Open Door that he has disclosed
to petitioner as working for the FBI; including V.
Paul Reynolds, Scott Reynolds, Karen Reynolds,
Dave Ruiz, Larry Dearborne, and the Boucher
family.
Petitioner lived a reasonably peaceful life with
his parents between the years of 2014 - 2016
although petitioner understands his parents were
under pressure by their Government acquaintances

6 Petitioner’s Argument 1, 2, 3. Petitioner’s Family was/is
coercively manipulated by The Federal and State Governments,
violating the First, Fourth, Fifth, Eighth, Thirteenth,
Fourteenth Amendments of The United States Constitution;
Article 1 Section 1, 3, 4, 5, 6-A, 9, 13 of The Maine State
Constitution; identified to Maine State Government on
November 01 2016 and August 02 2017; Maine Supreme Court
in Appellant’s Brief KEN-18-479, Argument Nine; Motion to
Reconsider, Argument One and Motions for Findings of Facts
and Conclusions of Law; all ignored by the Maine Supreme
Court. Cited documents included in Appendix.
12

to have petitioner move out in order to force him
back into working for the Government.7
On June 06 2016, after a verbal confrontation
between Petitioner and Father regarding future
employment, petitioner’s father apparently called
‘911’. A Penobscot County Sheriffs Tactical Unit
responded, a suspiciously forceful response to the
situation, and petitioner was taken into custody and
charged with “Domestic Violence, Misdemeanor
Class D". Case was docketed PENDC-CR-16-20309.8
Petitioner had problems finding a lawyer to
represent him, and continues to have critical
problems obtaining a lawyer for any of the numerous
charges brought against him in Maine State Court,
three of them being criminal, due to continual
interference from the FBI. Petitioner has made his
State Government as well as the FBI aware of these
circumstances, and they remain unchanged.9
7 Same argument as footnote (6).
8 Dismissed after Petitioner obtained November 30 2016 and
March 22 2017 Hearing Transcripts showing collusion between
Judge and Prosecution as well as Malfeasance involving same.
9 Petitioner’s Argument 1, 2, 3, 4, 5, 6. Petitioner was/is being
obstructed from obtaining an Attorney unaffiliated with the
FBI or CIA to represent him in any matter whatsoever due to
the nature and severity of the Crimes already having been
visited upon him, violating the First, Fourth, Fifth, Sixth,
Eighth, Ninth, Thirteenth, Fourteenth Amendments of The
United States Constitution; Article 1 Section 1, 4, 5, 6, 6-A, 9,
13, 19 of the Maine State Constitution; identified to Maine
State Government on November 01 2016 and August 02 2017;
The Maine Supreme Court in Appellant’s Brief KEN-18-479,
Argument Nine; Motion to Reconsider; Motions for Findings of
Facts and Conclusions of Law; all ignored by the Maine
Supreme Court. Cited documents included in Appendix.
Supporting documentation included in Appendix, Pages 357,
370, 384.
13

On November 03 2016, Petitioner agreed to a
2-year Protection Order that allowed no contact
whatsoever with his father on the fraudulent advice
of attorney Philip Molar of Skowhegan, Maine. That
Case was docketed as NEWDC-PA-16-00103.10
Between the years 2016 - present, petitioner
has necessarily changed residences approximately
six times as the Protection Order(s) preclude him
from returning to his former residence, and he is
continually harassed and assaulted by fellow tenants
at his apartments, his apartments and vehicle are
regularly broken into and the few possessions
petitioner owns are either stolen, destroyed, or
tampered with, and all residences petitioner has ever
attempted to live peacefully at have resulted in his
landlords’ attempting to evict him and petitioner
subsequently moving out on his own accord.11
This current situation is stark contrast to
petitioner’s life in Connecticut, where he occupied
the same apartment at Pinney Hill Apartments,
Carrolton Properties, Ellington Connecticut from the
years 2002 - 2014 with never a single complaint
against him by anyone, and where he was on friendly
10 Same Argument as footnote (9).
11 Petitioner’s Arguments 1, 2, 3. Petitioner asserts that the
Federal and State Governments have exercised total control
over Petitioner’s dwelhng(s) and possessions and constantly
move him around at their discretion, violating the First,
Fourth, Fifth, Eighth, Ninth, Thirteenth, Fourteenth
Amendments to The United States Constitution; Article 1
Sections 1, 5, 6-A, 9, 13, 14 of The Maine State Constitution;
identified to Maine Supreme Court in Appellant’s Brief KEN18-479, Argument Nine; Motion to Reconsider, Argument One;
Motions for Findings of Facts and Conclusions of Law, all
ignored by the Maine Supreme Court. Cited documents
included in Appendix.
14

or cordial relations with all those he knew at that
apartment complex.
Petitioner has contacted The Bangor Police
Department, The Knox County Sheriffs Department,
and The Kennebec County Sheriffs Department and
all have refused to assist petitioner in any way
whatsoever despite numerous affidavits submitted to
them under penalty of perjury describing the crimes
petitioner has been victim to, one including assault
with a deadly weapon (a handgun), and those
departments have thus denied petitioner Equal
Access to and Protection under the Law which is a
violation of petitioner’s Constitutional Rights.12
As a result, Petitioner continues to be victim
to crime such as breaking and entering, burglary,
theft, vandalism and destruction of property on a
regular basis and these crimes go uninvestigated.
Petitioner is aware that the FBI or agents acting on
their behalf are perpetrating these crimes, in
constant and ceaseless violations of petitioner’s
Constitutional Rights.13

12 Petitioner’s Arguments 1, 2, 3, 4, 5. Petitioner asserts that
the Federal and State Government have colluded in denying
him equal access to and protection under the law, because they
are the perpetrators, and have therefore put him at their mercy,
in a position akin to slavery, violating the Fourth, Fifth, Eighth,
Ninth, Thirteenth, Fourteenth Amendments of The United
States Constitution; Article 1 Sections 1, 5, 6-A, 9, 13, 19 of The
Maine State Constitution; identified to Maine Supreme Court in
Appellant’s Brief KEN-18-479, Argument Four, Nine; Motion to
Reconsider, Argument One; Motions for Findings of Facts and
Conclusions of Law, all ignored by the Maine Supreme Court.
Cited documents included in Appendix.
13 Same Argument as footnote (12).
15

Petitioner moved into his current apartment,
11 (7) Hussey Road, Apartment 3, Albion Maine
04910 on April 29 2018:
Immediately Petitioner experienced problems
with his neighbors, including but not limited to
harassment, stalking, assault, breaking and entering
into his apartment and vehicle, theft, vandalism, and
destruction of property.
Petitioner was at that time a smoker and
because petitioner was told his apartment was non­
smoking, petitioner needed to find a safe place to
smoke. Petitioner’s outside 2nd/3rd story patio did
and does not qualify as a “safe place” due to the
aforementioned crimes which is documented in his
nine Kennebec County Sheriffs Office Police
Reports/Complaints as well as letters of complaint to
his landlord.
Petitioner initially chose a secluded field to
smoke, approximately a quarter-mile down the
Hussey Road from his apartment. Less than a week
after beginning to smoke in that field, petitioner
found it to have been posted “No Trespassing”
(although there was no signature associated with the
sign, which makes it unlawful in the State of Maine)
and the entrance to that field barred by an iron gate.
Because petitioner knows he is under roundthe-clock surveillance and because petitioner was
experiencing grievous problems with both his
landlord and neighboring tenants, who he knows to
be the FBI or agents acting on their behalf,
petitioner chose to smoke on the Public Sidewalk in
front of the Albion Town Office and Library; about
one-tenth of a mile from his apartment.
Petitioner chose to smoke on that Public
Sidewalk wearing all black (his usual attire,
16

commonly associated with Top Secret) with a pink
ribbon hanging out of his pocket (commonly
associated with Hillary Clinton) in front of Town
Municipal Buildings (commonly associated with the
Government) while flying the International Red
Cross Flag (commonly associated with Medical
Attention) from his apartment patio
Thus petitioner’s choice of smoking area was
calculated for peaceful Political Activism in which he
hoped the people of Albion might put the clues
together and see him for who he is, and petitioner
might therefore combat the prevalent propaganda
that he is some sort of menace or miscreant that the
FBI and State of Maine has been peddling since his
“retirement” and return to Maine.
Note that this propaganda has been
perpetuated by the Maine Supreme Court, who have
verifiably Libeled petitioner in the “Facts of the
Case” of their Decision (Page 38) which are in direct
contradiction to The Maine State Police Officers’
sworn affidavits (Page 355).
Note furthermore that petitioner has been
charged with three Criminal Cases since returning to
Maine in 2016 and all have been dropped by State’s
Prosecution (after approximately nine months of bail
conditions each) while petitioner defended himself
Pro Se.
It is therefore clear that petitioner is either
one of the State’s Top Attorney’s or has been charged
with some of the State’s most fraudulent cases.
Petitioner asserts that the latter is correct.14
Almost immediately after beginning to smoke
on that Public Sidewalk, petitioner was regularly
14 NEWDC-CR-16-20309, KENDC-CR-18-20983, KENDC-CR-18-21183.

17

subjected to jeers and verbal abuse by passing
vehicles, sometimes as many as two or three vehicles
per cigarette (the time span of approximately five
minutes).
Furthermore, highly suspicious behavior was
taking place in that parking lot while petitioner was
parked there, such as vehicles parking directly
adjacent to him while the lot was otherwise empty
and their occupants watching him while not leaving
their vehicle(s), vehicles parking perpendicular to
him (parking sideways in a marked, single-direction
parking lot) and “staring him down” menacingly and
disapprovingly, and an unusually large number of
“citizens” walking the sidewalk while petitioner was
there.
Thus petitioner was aware of the fact that the
FBI did not appreciate his presence in this highlyvisible, public, small-town Downtown Albion area,
and this only strengthened Petitioner’s resolve to
smoke there.
On August 07 2018, Petitioner entered the
Albion Town Office to legally acquire some public
information on multiple residences in Albion that he
had noticed suspicious and disturbing activity taking
place from, most located directly adjacent to
petitioner’s own “apartment building”.
Immediately two of the three Albion Town
Clerks became extremely hostile towards petitioner.
Petitioner told the clerks that he would call The
Kennebec County Sheriff s Office for an escort if
circumstances didn’t become reasonable. At that
point, one of the hostile clerks, later identified as
Amanda Dow of 67 Main Street Albion, one of the
suspicious residence’s petitioner was asking for
information about and located approximately 50 feet
18

from petitioner’s apartment, left the building and
called the Maine State Police.
After exiting the Albion Town Office with hard
evidence (Tax Records) that Fraud had been
committed against him by landlord Stephen Bellavia
(a fraudulent address assignment of 11, not 7,
Hussey Road), petitioner was immediately
confronted by the Maine State Police, who arrived in
force with no less than five officers and three vehicles
in plain sight.
Also suspicious was a woman with a
Professional Grade SLR camera with telephoto lens,
and a Maine State Police Trooper apparently helping
her take pictures of petitioner and his interactions
with Maine State Police Corporal Record.
Petitioner was issued a no-trespass warning
for the property of the Albion Town Office (22 Main
Street) but continued to park at the Albion Town
Library (18 Main Street) and utilize the Public
Sidewalk to smoke on. Petitioner is aware that the
Public Sidewalk is not the property of the Albion
Town Office.
On August 15 2018 Petitioner filed his first
Police Report with The Kennebec County Sheriffs
Department that detailed, among other things, this
incident (Page 289).
On August 18 2018 Petitioner was Criminally
Threatened with a Deadly Weapon (a handgun) from
a male whom the respondent has identified as her
boyfriend “Jordan Strohman” of her stated address,
28 Main Street, while smoking peacefully oil the
Public Sidewalk, which petitioner promptly reported
to the Kennebec County Sheriffs Department (Page
321).

19

On August 20 and 21 Petitioner was
additionally harassed by “Jordan Strohman” as
Strohman yelled vulgar and provocative comments at
petitioner, sometimes across all of downtown Albion
as petitioner was at times more than four properties
away from 28 Main Street. Petitioner promptly
reported these incidents to the Kennebec County
Sheriff s Department (Page 326).
On August 25 2018 petitioner was followed
closely from downtown Albion by “Jordan Strohman”
and a female occupant, approximately ten miles
down quiet country roads, before petitioner pulled off
onto a side street and into a populated house for
safety, at which point the Strohman vehicle “gunned
the engine” loudly and unnecessarily as it sped by,
signaling to petitioner it had been following him
quite purposefully. Petitioner promptly reported this
incident to the Kennebec County Sheriffs
Department (Page 333).
On August 28 2018 petitioner was followed
home from the Public Sidewalk in downtown Albion
by a man in a large white truck who tailgated him
the entire way. Petitioner exited his vehicle and
returned to his apartment, although the unknown
man followed him inside the foyer area yelling rude
and abusive comments the entire way. Said male
then entered Apartment #1 (downstairs from
petitioner) and held conversation with the occupants
there for approximately fifteen minutes before
leaving. Said man was later identified as “Joseph
Strohman Sr.” by Maine State Police Trooper Tyler
Harrington, presumably the father of “Jordan
Strohman”.
On August 29 2018 petitioner was issued a
“Cease Harassment Notice” by the Maine State
20

Police for the person of the respondent, a person he
had never seen, heard of, or known about at all.
Petitioner was rightfully confused and afraid as he
had been threatened with a handgun and
additionally harassed from the male occupant of 28
Main Street, had reported this grievous threatening
to the Police and nothing had been done, and now
eleven days later he was being issued a “Cease
Harassment Notice” for the female occupant of 28
Main Street, a person he had never seen and had no
knowledge of whatsoever.
On August 30 2018 Petitioner was arrested
while smoking on the Public Sidewalk approximately
300 feet and four properties away from 28 Main
Street, and charged with both Stalking the
respondent (Docketed as Case KENDC-CR-18-20983)
and Trespassing at 22 Main Street (Docketed as
Case KENDC-CR-18-21183). Petitioner was
confronted by approximately eight Maine State
Troopers and five different Maine State Police
Vehicles.
As petitioner was thrown over the back of an
MSP vehicle and handcuffed by no less than five
Maine State Troopers, loud cheering and applause
could be heard from the other side of the street. A
crowd had somehow assembled to witness and
applaud petitioner’s arrest.
Petitioner was taken to Kennebec County Jail
where he spent the night and was subsequently
bailed the next morning. Petitioner has not utilized
the public sidewalk, road, or been through downtown
Albion whatsoever since the date of his arrest.
Respondent sought a Protection from
Harassment order against petitioner. Petitioner filed
a legally substantial Motion to Dissolve well in
21

advance of that hearing which took Maine State
Police Trooper Tyler Harrington, the officer who
applied for petitioner’s arrest warrant and
subsequently arrested him, an entire 9 days’ to
deliver to the respondent, her not receiving it until
the night before the hearing, and this fraudulent
service time was used as an excuse by the Maine
State Judiciary to ignore it and move directly to the
Final Hearing. Petitioner was also verifiably lied to
by the presiding Judge (Davis, J.) multiple times
during that September 27 2018 hearing (Page 288).15
At the October 31 2018 Final Hearing,
petitioner was saddled with both a 1-hour time limit
for presenting his case, which he was made aware of
only 2 days’ before the hearing, on October 29 2018.
Also during the final hearing, petitioner was again
saddled with a “witness scheduling order” that
precluded petitioner from calling any of the
Government Witnesses (Maine State Police Troopers)
petitioner had subpoenaed, nor viewing any of the
15 Petitioner’s Argument 1, 2, 3, 4, 5. Petitioner asserts The
Federal Government, Maine State Government, Law
Enforcement, and Judiciary have colluded in charging and
prosecuting him with Fraudulent Case(s) in order to unlawfully
remove him from the Public in Albion and have colluded in
manipulating those case(s) in order to reach the conclusion(s)
they wished to have; violating the First, Fifth, Sixth, Eighth,
Ninth, Tenth, Thirteenth, Fourteenth Amendments to The
United States Constitution; Article 1 Sections 1, 4, 5, 6, 6-A, 9,
13, 15 of the Maine State Constitution; Rules 1.1, 1.2, 1.3, 2.2,
2.3, 2.4, 2.5, 2.6, 2.7, 2.8, 2.9, 2.10, 2.11, 2.12, 2.15 of The Maine
Code of Judicial Conduct, identified to Maine Supreme Court in
Appellant’s Brief KEN-18-479, All Arguments; Reply Brief
KEN-18-479, All Arguments; Motion to Reconsider, All
Arguments; Motions for Finding of Facts and Conclusions of
Law. All ignored by the Maine Supreme Court. Cited
documents included in Appendix.
22

substantial seven evidentiary items petitioner had
subpoenaed.16
Both scheduling orders limited petitioner’s
time to examine witnesses or view evidentiary items
to 3 minutes and 45 seconds, which is highly
unreasonable.
Thus Petitioner asserts the FBI, Maine State
Government and the Maine State Judiciary have
colluded against him in order to make it impossible
for him to adequately present his case and properly
defend himself.17
Presiding Judge (French, Rae Anne) ruled in
favor of the respondent and issued a one-year
protection from harassment order.
Petitioner appealed to the Maine Supreme
Court with a series of very well-wrought and legally
substantial arguments although That Court upheld
the lower court’s decision.
Petitioner subsequently submitted a Motion to
Reconsider (page 218) that made it explicitly clear
that the Maine Supreme Court’s Ruling is unjust,
and that Motion was denied without explanation
(page 81).
Petitioner submitted Motions for Findings of
Facts and Conclusions of Law that made it explicitly
and undeniably clear that The Maine Supreme
Court’s ruling was unjust, and that court refused to
answer petitioner’s Motion in any way, not even
16 Petitioner’s Argument 1, 2, 3, 4, 5, 6. Same argument as
footnote (15), with additional violations of M.R. Evid 611(a);
M.R.Civ.P. 42; M.R.Civ.P.16A(a); Dolliver v. Dolliver, 2001 ME
144, 1J10, 782 A. 2d 316; Bank of Am. N.A. v. Camire, 2017 ME
20, 1(10, 155 A.3d 416. Cited documents included in Appendix.
17 Petitioner’s Argument 1, 2, 3, 4, 5, 6. Same argument as
footnote (16).
23

dispositioning them, as doing so would have been
highly-incriminating as one need only inspect the
Motion(s) (pages 264, 272) to see the injustice
petitioner has suffered as a result of the upheld 3
minute and 45 second scheduling order(s) for
inspection of witnesses and viewing of evidentiary
items; precedent the Maine Supreme Court has now
established.18
Petitioner therefore finds, for reasons stated
above, that there are clearly major Constitutional
Problems associated with KEN-18-479 and the
Maine Supreme Court’s handling of it was clearly
improper and collusion between The Federal and
Maine State Government and law enforcement is
clearly evident.
The Maine Supreme Court’s refusal to address
any of the Constitutional Violations raised in
petitioner’s KEN-18-479 documentation is appalling,
as that court has stated “We review questions of law,
including alleged constitutional violations... de
novo.” (Sparks v. Sparks, 2013 ME 41, 19, 65 A.3d
1223), as is their refusal to answer or even provide a
disposition to petitioner’s Motion for Findings of
Facts and Conclusions of Law.
18 Petitioner’s Argument 1, 2, 3, 4, 5, 6, 7. Petitioner asserts The
Maine Supreme Court has set highly-unreasonable precedent
that will be used to disenfranchise innocent and unassuming
htigants at their discrimination; violations of M.R. Evid 611(a);
M.R.Civ.P. 42; M.R.Civ.P.16A(a); Dolliver v. Dolliver, 2001 ME
144, If 10, 782 A.2d 316; Bank of Am., N.A. v. Camire, 2017 ME
20, If 10, 155 A.3d 416. Identified to Maine Supreme Court in
Appellant’s Brief KEN-18-479, Arguments Two, Three, Five;
Reply Brief KEN-18-479, Arguments 1, 2; Motion for
Reconsideration, Arguments 3, 4, 5; Motions for Findings of
Facts and Conclusions of Law. All ignored by the Maine
Supreme Court. Cited documents included in Appendix.
24

Petitioner prays that he has cast a bright
enough light so that The Honorable United States
Supreme Court can see the obvious and continuing
International and Constitutional Violations here and
bring Justice and Law and Order back to The State
of Maine and Petitioner’s Life.
REASONS FOR GRANTING THE WRIT
1. The Maine Supreme Court has set Highly
Unreasonable Precedent that will be
used to disenfranchise innocent and
unassuming litigants in the future.
In doing so That Court has sanctioned
the extreme departure from the accepted
and usual course of judicial proceedings
so as to demand the exercise of The
Honorable United States Supreme
Court’s supervisory power.
As explained in The Statement of Case (pages
22-24), footnote (16), The Maine Supreme Court
has with this case set Highly Unreasonable
Precedent by allowing two successive scheduling
orders, one issued only two days before trial and
one issued during trial, to marginalize
petitioner’s time for examination of witnesses
and evidentiary items to exactly 3 minutes and
45 seconds each.
Clearly proper examination of a witness
usually exceeds 3 minutes and 45 seconds. It
takes longer than that for petitioner to order a
coffee and that is a trivial transaction, not a
Bound-by-Force-of-Law transaction in which the
25

witness is asked questions under oath, the
answers to which may have far reaching
implications that may be significant for lifetimes,
if not generations.
Likewise, proper viewing of an evidentiary
item usually takes longer than 3 minutes and 45
seconds. Most evidentiary items (security
footage, cell phone conversations, depositions,
etc...) are much longer than 3 minutes and 45
seconds and cannot possibly be viewed when the
Maine Supreme Court invokes the precedent it
has set in Doe u. Plourde. It takes longer than 3
minutes and 45 seconds for commercials to run
between a television program. How much more
important is viewing security footage that shows
conclusively that petitioner conducted himself
lawfully and peacefully at the Albion Town Office
(despite the town “ganging up” on him) or that
petitioner had a keychain the width of a piece of
string (despite the respondent testifying it was a
weapon about an inch thick)?
The Maine Supreme Court has erred
grievously from its Sworn Oath and Duties to
Justice and has departed exceedingly far from
the usual course of Judicial Proceedings, and as a
result has set precedent in Doe v. Plourde that is
so egregiously unreasonable and wrong that it
demands a higher power, the only power the
Maine Supreme Court is answerable to - The
Honorable United States Supreme Court, to
correct before more innocent and unassuming
litigants are marginalized and taken advantage
of.

.

26

2. Petitioner has been Tortured by The
United States Government, multitudes of
people know it, and still The United
States Government refuses to accept
responsibility for it.
There are very, very few International
Crimes more heinous than Torture.
Torture is a Very Serious Crime, and. is
recognized as such Internationally by the Geneva
Conventions against Torture. The penalties for
torture are very severe, also recognized by the
Geneva Conventions against Torture. Petitioner has
been verifiably Tortured during his employment at
United Technologies’ Hamilton Sundstrand during
2012 - 2013, and those injuries sustained as a result
have persisted to this day and Torture continues to
be inflicted upon petitioner by The United States
Government daily. Petitioner has alerted this Fact
to The Office of the Director of National Intelligence,
The FBI, The CIA, The ACLU, The Maine State
Government, The Maine Supreme Court, Local Law
Enforcement, and numerous other Federal and State
Government Entities. None of these entities have
offered petitioner any assistance or recourse
whatsoever and have instead chosen to collude with
one another and “cover up” these heinous acts.
Furthermore, this case on petition is ripe with
additional United States Constitutional Violations,
against petitioner and his family, which are also
readily verifiable. These abuses have been
committed against petitioner and his family by The
Federal Government, The FBI, The CIA, The Maine
State Government, and Local Law Enforcement,
27

among others. Petitioner has brought these abuses
to the attention of the Maine Supreme Court, who
has refused to rule on, or even comment on, these
abuses. Furthermore, when asked directly to
confront these issues in a series of timely post­
judgement motions, the Maine Supreme Court has
refused to address these Constitutional Violations,
let alone even respond.
Thus it is clear that petitioner’s untenable
situation will continue to harm petitioner and
petitioner’s family for the rest of their lives, unless a
higher power intervenes. Petitioner recognizes that
The Honorable United States Supreme Court is his
current Court of last resort, and therefore asserts
that, unless they act, petitioner and his family will
be condemned to a life of both physical and emotional
pain, suffering, and misery.
3. Simply ignoring grievous violations of
Constitutional Law is clearly not what
the Founding Fathers of this Country
had in mind when they drafted The
United States Constitution and created
The United States of America.
As cited above, petitioner has exhausted all
avenues of recourse available to him, even
meeting with Attorney Bill Knowles of Verrill
Dana on a referral by Attorney Philip Mohlar of
Skowhegan Maine. Petitioner is aware that his
meeting with Attorney Knowles was videotaped.
At the end of that meeting, petitioner was
informed by Attorney Knowles that Verrill Dana
was not interested in representing him.

28

Petitioner knows Bill Knowles is a very upperechelon member of Verrill Dana and that Verrill
Dana litigates some of the most serious cases
that exist in this country, and as they have
refused to represent him, petitioner has gained
an understanding of The Government’s
disposition towards his Legal Situation and thus
has no reason to expect their help.
As petitioner has cited in his Statement of the
Case, the FBI is positively interfering with
petitioner’s attempts to hire a private attorney,
and in doing so are preventing him from hiring a
high-quality attorney who could make short-work
of petitioner’s Highly-Verifiable and HighlyUnconstitutional situation.
Clearly, to let petitioner be Tortured and to let
his Constitutional Rights be violated on a daily
basis by the United States Government, and to
let the Torture, Constitutional Violations, and
Harassment persist to this very day, despite the
Fact that petitioner has made all avenues of
recourse available to him aware of his situation,
is Positively Not what the Founding Fathers had
in mind when drafting the United States
Constitution and creating the United States of
America. Petitioner asserts that the founding
fathers would “roll over in their graves” if they
were aware of the Federal Government’s
treatment of petitioner and the Federal and
States’ Government response to the situation.
Thus petitioner asserts that this situation is so
egregiously Unconstitutional that it demands the
attention of The Honorable United States
Supreme Court in the spirit under which this
country was founded.
29

4. Petitioner and his Family have no other
recourse.
As cited above, Petitioner has made numerous
Federal Government, State Government, and
Law Enforcement Agencies aware of the Torture
he has endured, and all have refused to even
investigate this easily-verifiable and undisputed
Fact as The Geneva Conventions Against
Torture, to which The United States is a signed
and principal party, demand they must.
Thus petitioner is forced to live an isolated life
in which neither the protection of International
Law nor protection of the Laws of this Nation
apply to him, and the guilty parties are free to
continually harass and further Torture the
petitioner, in violation of both International and
Constitutional Law. Petitioner’s parents have
also suffered greatly as a result as they are
obviously in grave fear for their family.
This situation is tantamount to slavery, and
petitioner, who holds multiple degrees from the
prestigious Rensselaer Polytechnic Institute and
who once held very high-visibility and highly important and impressive positions within multi­
national corporations such as United
Technologies, has now been reduced to living at
approximately one-third of the State of Maine’s
poverty level, in indigency and isolated from the
community, as any attempts he makes to interact
with members of the public are immediately
interdicted by The FBI or agents acting on their
behalf.
Petitioner has little hope for his own future or
the future of his family should The Honorable
30

United States Supreme Court fail to address the
International and Constitutional Violations of
Law against him and his family that the Maine
Supreme Court has refused to.
5. The Situation is positively Untenable
and Uncontainable and Patently Wrong.
Maine is a state of a few small cities, many
small towns, and many more smaller rural
farming communities. Its largest city, Portland,
has perhaps 200,000 inhabitants.
Few people move to Maine as there are no jobs
here, and even fewer leave. It is not a transient
State, it is a State where people come to settle,
and generations of families have chosen to stay
and enjoy the quiet peace of life here rather than
to seek fame or fortune elsewhere.
Maine is a state where people know one
another intimately, and have known one another
for generations. There are not many secrets kept
in Maine, as “small town gossip” is pervasive
throughout the State and has a way of traveling
far beyond the small towns it has originated in.
As The Honorable United States Supreme
Court might imagine, petitioner’s situation, as
well as his parents’ and sister’s, has made for
juicy gossip that has passed far beyond the
borders of the towns it has originated in and has
positively leaked despite the fact that many
details are classified Secret and Top Secret.
Objective proof of this fact and the Fact that
the FBI is leaking information regarding
petitioner may be found in petitioner’s highlyimprobable and patently ridiculous FBI31

orchestrated housing situation that has been
ongoing for over three years and has been
recounted extensively to The Honorable United
States Supreme Court in Application for
Certiorari 19-299 (pages 27-32 therein).
Petitioner faces daily hardships resulting from
these Classified Leaks when he routinely
frequents locations of necessity or interest.
Often, the proprietors don’t dare look petitioner
in the eye as they are aware or afraid of his
circumstances. This makes for awkward
interactions between petitioner and the public,
and Maine is no longer the easy-going State
petitioner grew up in.
Furthermore, petitioner is unable to make
friends or acquaintances with the General Public
as the FBI is quick to move in and prevent this
healthy behavior. The people petitioner meets
and befriends are quickly informed of his
circumstances by the FBI or law enforcement and .
resultingly keep an abnormal and awkward
distance.
One such painful example was when petitioner
met a very respectable girl over the summer of
2019 in Old Orchard Beach and the two shared
an instant attraction with one another. Their
first conversations were excellent and the mutual
attraction was obvious.
When petitioner returned to meet his wouldbe-girlfriend and perhaps someday wife the next
weekend, they were immediately surrounded by
half-a-dozen or more Old Orchard Beach Police
Officers, and she told petitioner her boss had
warned her not to talk to petitioner anymore.
She also informed petitioner they were being
32

watched from the patio above, and upon looking
for himself petitioner confirmed that fact.
Petitioner knows with certainty this girl was
no CIA or FBI agent as she was a Foreign
National here on an H-l Visa working at a
shaved-ice stand for the summer.
Petitioner is 40 years old and single, and the
Federal Government will not allow him to have a
girlfriend or wife, although they have put
numerous “girls of questionable morals” within
his reach, often shamelessly and blatantly, that
he knows to be CIA, FBI, or law enforcement
agents. The thought of an “arranged marriage”
in lieu of “true love” is repugnant to petitioner,
who has experienced true love in his young
adulthood.
Therefore petitioner rightfully asserts that
this Constitutionally Unlawful situation is
intolerable and untenable and is out of The
Federal Government’s control, despite the fact
that petitioner is “locked down” so tightly that he
cannot meet girls or make friends outside of The
Federal Government’s sphere of immediate
control.
This Patently Wrong situation needs to be
brought to an immediate conclusion; which the
Federal and Maine State Governments and Legal
System have refused to do, for their own
unlawful and selfish interests.
The alternative is the continued Leaking of
Classified Information to the General Public with
petitioner kept in social isolation while he is
further exploited for the purposes of continual
and never-ending “Federal and State law

33

enforcement cooperative exercises”, “training
exercises”, “games theory”, or “war games”.
6. The Fallout could be Tremendous.
If these International and Constitutional
Violations of Law continue to go unanswered for,
petitioner will be put in a position of no recourse
and his situation will become desperate.
In such a situation, petitioner sees only the
following three contingencies.
The first would be to live a life where
petitioner and his family accept the fact that they
have no International or Constitutional Rights, a
life in which The Federal and State Government
and the Law Enforcement Agencies paid with
their own tax dollars to protect them will not
protect them, and therefore to live a life akin to
slavery, at the mercy of the whims of the Federal
Government who act above the law. This is not
an acceptable situation in the eyes of petitioner,
nor should it be in the estimation of The
Honorable United States Supreme Court.
The second would be to live a life where
petitioner devotes himself to engaging in direct
Legal Action at both the State and Federal
Levels against those who have wronged him and
violated the law in doing so. The fist of potential
defendants is not short by any means, and
includes high-visibility high-profile persons and
institutions such as Federal, State and Local
Politicians, Government Employees, Federal and
State Government Agencies and Institutions,
Municipal Agencies and Institutions, as well as
private business and individuals. The FBI, with
34

which petitioner knows The Honorable United
States Supreme Court to have a close working
relationship with, can attest to this fact.
This course of action is potentially, and in all
probability as well as petitioner’s own estimation,
lucrative; although it requires devotion of
petitioner’s entire life to a single cause.
Petitioner has made a rough list of culpable
defendants, as alluded to above, and estimates
that it could take over 10 years to litigate all
cases, assuming no additional grievances are
levied against him - which is unlikely, and
assuming a rough-estimation of a heavy case­
load per year, relative ease or difficulty of the
cases involved, and the statutes of limitations
involved.
This course of action would be quite the
undertaking, and would deprive petitioner of
much time he might otherwise enjoy
participating in hobbies or activities he is
interested in pursuing. However, petitioner is
not pleased with what he has been subjected to
nor is he pleased with the fact that the Federal
and State Government refuse to be held
accountable for their crimes. Petitioner also has
concerns for his family, and engaging in direct
course of public action would certainly get the
plight of petitioner and his family into the Public
Domain and Public Record far faster than even
the FBI can with their constant leaking from
town to town as discussed above.
The Final course of action available to
petitioner is to leave the country through
Political Asylum, which the FBI has assured him,
through Top Secret means and methods, that he
35

is sure to receive; and in petitioner’s own
calculation, he concurs.
Petitioner’s choice of Asylum Country, which
he understands he has some control over due to
United Nations Mandates, is not likely to be one
particularly friendly with the United States, as
petitioner has had quite enough of the Torture,
Isolation, Harassment and Meddling in his
Affairs that has been the hallmark of the FBI’s
involvement in his life for over the past 15 years
or so and will therefore not select a country
which is likely to collaborate on the Medical
Treatment necessary due to Torture petitioner
has been subject to and Critical Injury(s)
sustained, nor report petitioner’s condition or
whereabouts to The United States.
Petitioner will not go quietly either. Petitioner
finds that the propagation of a lie convenient to
the United States Government such as “He
moved to Alaska and we rarely hear much from
him” to be completely unacceptable. Petitioner
will ensure, through various means and methods
available to him, that it is publicly disclosed that
he has sought and received Political Asylum due
to the United States Federal Government’s
Torture of him and their failure to be held
accountable for it.
It will not end there. Petitioner will seek
Legal Counsel in his Asylum Country in which to
aid petitioner in Legal Action against The United
States through various International Courts of
Law, which should not be difficult due to his
Asylum Country’s probable disposition towards
the United States as described above.

36

In this event, the United States will be called
to account for their crimes against petitioner on
the International Stage. Petitioner has no
qualms or misgivings regarding this course of
action should he be forced into Asylum and will
pursue it with zeal and fervor.
Petitioner finds this course of action to be
unfortunate but perhaps necessary as living
under the constant Torture, Isolation,
Harassment and Interference of The Federal
Government for over the last 15 years,
particularly the last 8, has been demanding and
intolerable and certainly not a life worth living.
CONCLUSION
The petition for a writ of certiorari
should be granted.
Respectfully submitted,
Glen Plourde
7 Hussey Road Apartment 3
Albion, Maine 04910
207.659.2595

37

MAINE SUPREME JUDICIAL COURT Reporter of
Decision: No. 2019 ME 109
Decisions
Docket: KEN-18-479
Submitted On Briefs: June 26, 2019
Decided: July 11, 2019
Panel: SAUFLEY, C.J., and ALEXANDER, MEAD,
GORMAN, HJELM, and HUMPHREY, JJ.

JANE DOE1
v.
GLEN PLOURDE

HUMPHREY, J.
HI 1] Glen Plourde appeals from a protection
from harassment order entered against him in the
District Court (Waterville, R.A. French, J.) on the
complaint of Jane Doe. See 5 M.R.S. §§ 4653, 4655(1)
(2018). Plourde argues that the court abused its
discretion in consolidating the hearing on his motion
to dissolve the temporary protection from
harassment order and the final hearing on Doe’s
complaint, and in issuing a scheduling order that
limited the time for the consolidated hearing to two
1 To comply with federal law, we do not identify the plaintiff in
this protection from harassment action and limit our
description of events and locations to avoid revealing “the
identify (sic) or location of the party protected under [a
protection] order.” 18. U.S.C.S. § 2265(d)(3) (LEXIS through
Pub. L. No. 116-19).
38

hours. He also argues that the court erred in finding
credible the testimony of two witnesses and in
finding that he intentionally sought to harass Doe.
We affirm the court’s judgment.
I. Background
H[2] In May 2018, Doe first noticed Plourde
watching her as she left her home. He made kissing
movements and moved his head and body to follow
her as she drove by him three ties that day. Doe
then noticed Plourde smoking while he observed and
walked by her home multiple times each day from
May to August. This caused her to be fearful, feel
uncomfortable, and change her daily routine to avoid
being outdoors. Plourde later requested copies of the
blueprints to her home from the town office. Plourde
was arrested after entering Doe’s driveway and
observing her through the glass portion of her door.
HI3] On August 30, 2018 Doe filed a complaint
for protection from harassment against Plourde in
the Waterville District Court. 5 M.R.S. § 4653(1)
(2018). The court (.Mathews, J.) issued a temporary
protection from harassment order that same day. Id.
§4654(2) (2018). On September 18, 2018, Plourde
filed a motion to dissolve, which was scheduled for a
hearing on September 27, 2018. Id. § 4654(6) (2018).
Because Doe was not served with the motion to
dissolve until the night before the hearing, the court
(Davis, J.) continued the hearing to October 1, 2018,
consolidating it with the final hearing on Doe’s
complaint. On October 1, the court (Stanfill, J.)
continued the hearing on both motions due to the
court’s schedule. Between October 12 and 23, 2018,
Plourde served witness subpoenas on numerous
39

individuals and filed many letters with the court.
After reviewing Plourde’s materials, the court issued
a scheduling order limiting the time allotted for the
consolidated hearing to two hours - each party was
“limited to one hour for both cross-examination and
direct presentation of his or her case.”
[14] On October 31, 2018, the court (R.A.
French, J.) held the consolidated hearing and issued
a one-year protection from harassment order on the
basis that Doe “established stalking” and
“established three or more acts of intimidation that
caused her fear and, in fact, were done with he intent
to intimidate.” Plourde timely appealed without
filing a motion for further findings. M.R. App. P.
2B(c); M.R. Civ P. 52(b).
II. Discussion
[115] Plourde first challenges the court’s
decision to consolidate the final hearing on Doe’s
complaint and the hearing on his motion to dissolve
the temporary protection from harassment order.
We review the court’s procedural decision to
consolidate the hearings for an abuse of discretion.
See M.R. Civ. P. 42(a); Maietta v. Int’l Harvester Co.,
496 A.2d 286, 290-91 (Me. 1985).
[1 6] Contrary to Plourde’s argument, the court
did not abuse its discretion in consolidating the
hearings. First, the court did not improperly
continue the hearing on Plourde’s motion to dissolve,
which had been scheduled to be heard on September
27, 2018, after Doe was served only the night before.
See 5 M.R.S. § 4654(6). Second, pursuant to section
4654(6), the court has discretion with regard to when
to hold the hearing on the motion to dissolve. See id.
40

In this case, the court quickly rescheduled the
hearing to two business days later - October 1, 2018
- when the parties were already scheduled to appear
in court for the final hearing on Doe’s complaint. It
is within the court’s discretion o consolidate hearings
where, as here, there is a common question of law or
fact. M.R. Civ. P. 42(a). In this case, the hearings
involved common questions of law and fact, namely,
whether Doe could demonstrate, by a preponderance
of the evidence, that Plourde harassed her. 5. M.R.S.
§ 4654(1), (6), (2018). Finally, the court’s decision to
consolidate the hearings did not disadvantage
Plourde. At both a hearing on a motion to dissolve
and a final hearing on a complaint for protection
from harassment, it is the plaintiffs burden to
demonstrate to the court, by a preponderance of the
evidence, that a protection order is appropriate. Id.
The court’s decision to consolidate the hearings did
not relieve Doe of her burden or otherwise
disadvantage or prejudice Plourde. Therefore, the
court did not abuse its discretion. See M.R. Civ. P.
42(a); Maietta, 496 A.2d at 290-91.
[f 7] Plourde next challenges the court’s
(Stanfill, J.) scheduling order limiting the
consolidated hearing to two hours, allotting one hour
to each party to cross-examine and present its case.
M.R. Civ. P. 16A(a). Contrary to Plourde’s
argument, the court did not abuse its discretion in
issuing a scheduling order limiting the duration of
the consolidated hearing and the issues to be
considered. See id. Pursuant to Rule 16A(a), “the
court may issue a scheduling order, trial
management order, or other order directing the
future course of the action”. Id. Moreover, the “trial
court has broad discretion to control the order and
41

timing of the presentation of evidence and to set and
enforce reasonable time limits on testimonial
hearings.” Dolliver v. Dolliver, 2001 ME 144, ^ 10,
782 A.2d 316. Based on prior court-related
experiences with Plourde, the number of subpoenas
Plourde filed (few, if any, of which were likely to
generate relevant evidence), and the relative
simplicity of the issues to be decided at the hearing,
the court did not abuse its discretion in limiting the
total time for the hearing to two hours, nor in
explicitly restricting the scope of inquiry to issues
relevant to the protection from harassment order.
See M.R. Civ. P. 16(A)(a); Bank of Am., N.A. v.
Camire, 2017 ME 20, H 1, 8-10, 155 A.3d 416
(determining that the trial court properly exercised
its discretion in managing trial time where the court
provided advance notice to the parties that the trial
would be limited to two hours on a claim involving
outstanding credit card debt).
Hj8] Finally, Plourde argues that the court
erred in relying on the testimony of two particular
witnesses and in finding that he intentionally
harassed Doe. We review challenges to a witness’s
credibility and the court’s factual findings for clear
error. See M.R. Civ. P. 52(c); Allen v. Rae, 2019 ME
53, T| 9, 206 A.3d 902; Sloan u. Christianson, 2012
ME 72, t 29, 43, A.3d 978. We find Plourde’s
arguments unpersuasive for two reasons. First,
“[b]ecause a trial court is not bound to accept
testimony and evidence as fact, and because
determinations of the weight and credibility of
testimony and evidence are squarely in the province
of the fact-finder, we will not second-guess the trial
court’s credibility assessment of conflicting
testimony.” Allen, 2019 ME 53,9, 206 A.3d 902
42

(quotation marks omitted). Second, contrary to
Plourde’s contention, there is sufficient evidence to
support the court’s finding that he engaged in a
pattern of behavior that caused Doe fear and was
performed with the intent to intimidate her. 5
M.R.S. § 4651(2)(A) (2018). Therefore, the court did
not err in issuing the protection from harassment
order. Id. § 4655.
The entry is:
Judgment affirmed.

Glen Plourde, appellant pro se
Melissa L. Martin, Esq., Pine Tree Legal Assistance,
Portland, for appellee Jane Doe
Waterville District Court docket number PA-2018329
FOR CLERK REFERENCE ONLY

43

STATE OF MAINE

SUPREME JUDICIAL COURT
Sitting as the Law Court
Docket No. KEN-18-479

Jane Doe
v.

ORDER DENYING MOTION
TO STAY THE MANDATE

Glen Plourde
Glen Plourde has timely filed a motion to stay
the mandate. The Court has not waited for any
response to the motion.
The motion is DENIED.
Date: s/ July 22

, 2019

For the Court,
Is Ellen A. Gorman (?)
Associate Justice

44

Maine Supreme Court
Docket No. Ken-18-479
Sitting as the Law Court Decision No. 2019 ME 109
Jane Doe
v.

ORDER DENYING MOTION
TO RECONSIDER

Glen Plourde
Glen Plourde has filed a motion to reconsider
the Court’s decision dated July 11, 2019. The motion
has been reviewed by the panel that decided the
original appeal.
The motion to reconsider is DENIED.
Dated: August 7, 2019

For the Court,
/s Matthew Pollack
Matthew Pollack
Clerk of the Law Court
Pursuant to M.R. App. P. 12A(b)(4)

45

